                         CLOSEOUT FOR CASE M-97030010

         On 21 March 1997, a program manager1brought a concern to OIG's attention about a
 PI'S (the subject2)lack of progress on his NSF award.3 The program manager explained that
 a complainant4 informed him that the award's proposed collaborative effort, that was to
 include the exchange of visits between a foreign scientist5 (or his student) and the subject,
had not been achieved. The program manager explained that when he was first informed
 about this matter, the subject's award was scheduled to close in about 6 months. He
 explained that the award's focus was to foster a collaboration between the subject and a
foreign scientist, specifically through a year long visit of a foreign scientist to the subject's
laboratory. The program manager contacted the subject to learn more about his progress on
the award. The subject explained that he was behind schedule, but that he planned to use the
award's remaining time and funds to invite a foreign scientist to work in his laboratory.
When the award closed, the program manager wrote to the subject requesting a final report.
When the subject did not respond, the program manager verified through NSF's Division of
Grants and Contracts (DGC) that all the funds for the award had been spent. He brought this
matter to OIG's attention because the award was closed and the subject had not completed
the proposed project.

       OIG requested tliat the subject's institution provide financial documentation for the
expenditures under the award. OIG's review noted that, although all the funds for the
subject's award had been used, there was no evidence that any of the h d s had been used to
support a foreign scientist's visit.

        OIG was informed that the subject contacted the foreign scientist soon after the
program manager requested a final report. OIG contacted the foreign scientist who
confirmed that no collaborative work had, as yet, been initiated by the subject. However, he
explained that the subject had recently made arrangements for one of his graduate student's
to work for 10 months in the subject's laboratory. The foreign scientist said that he had been
asked by the subject to provide a round-trip ticket for the foreign student's visit. The foreign
scientist said he told the subject that he thought funds for travel had been included in the
budget of the subject's award.




                                        Page 1 of 2                               M 97-.lo
                        CLOSEOUT FOR CASE M-97030010


        Soon after OIG contacted the foreign scientist, the program manager received a call
from .the subject requesting a no-cost extension for the award. He told the program manager
that there was sufficient money to complete the project. The program manager asked the
subject to submit a plan for the requested extension of the award, which he did. The
subject's plan included a full year's visit by a foreign graduate student and the student's
travel expenses.

        The Controller at the subject's institution wrote to OIG. He explained that the
institution had reimbursed the full amount of the subject's award from its own funds. He
confirmed that a visiting foreign scientist was scheduled to work in the subject's laboratory
for a year. In addition, the Controller promised to oversee the subject's award to guarantee
that NSF funds were spend appropriately. The program manager's request for a one-year
no-cost extension for the subject's award was approved by DGC.

       The program manager explained that he was satisfied that the original proposed
project would be completed. Finally, the program manager said that he would request
periodic updates on the project from the subject and that he would keep OIG informed.
Because the award was still active, OIG considered the continued oversight of the award to
be management's responsibility.

       This case is closed, and no further action will be taken.

cc: Staff Scientist, Attorney, AIG Oversight, IG




                                         Page 2 of 2
